Gupta / Wessler
Via Electronic Filing

Issues & Appeals

May 18, 2021

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543
Re:

No. 20-1349, Rachel Threatt v. Ryan Thomas Farrell, et al.

Dear Mr. Harris:
I write to seek an unopposed extension of the time to file a response to the petition for
certiorari in this case. The response is currently due on June 10, 2021. I request a 30-day
extension, to and including July 12, 2021. The petitioner consents to this request.
There is good cause for this request. Due to the urgency of other business, my colleagues
and I will require additional time to prepare an adequate response to the petition. Our upcoming
deadlines include, among others: a reply brief due on June 4 in In re: Elster, No. 20-2205, in the
Federal Circuit (with an appendix due on June 11); a rebuttal statement due on May 25 in
Callender v. Facebook, EEOC Charge No. 570-2021-00876; and a response brief due on June 17
in Mey v. DirecTV, No. 21-1274, in the Fourth Circuit. In addition, we will be preparing for and
appearing at several upcoming motion hearings in Thomas v. Cricket Wireless, No. 19-7270, in
the Northern District of California over the next four weeks. A 30-day extension will allow us
to balance these other responsibilities with our obligations in this case.
Thank you for your attention to this matter.
Sincerely,

cc: Counsel of Record

Gupta Wessler PLLC
1900 L Street, NW, Suite 312, Washington, DC 20036
P 202 888 1741 F 202 888 7792
guptawessler.com

Deepak Gupta

